            United States Department of State
            and the Broadcasting Board of Governors
            Office of Inspector General




             Work Plan
                                     Fiscal Year 2012




Promoting effective management, accountability, and positive change

                   Office of Inspector General Work Plan FY 2012
                                     Page 1 of 28
Table of Contents


Section                                                                                                                                        Page


Introduction ..................................................................................................................................... 1
OIG Vision ...................................................................................................................................... 2
OIG Mission.................................................................................................................................... 2
OIG Core Values............................................................................................................................. 2
Organization Chart .......................................................................................................................... 3
Office of Audits Overview.............................................................................................................. 3
Office of Audits Plans for FY 2012 ................................................................................................ 5
   Audits Directorate ....................................................................................................................... 5
      Contracts and Grants Division ................................................................................................. 5
      Financial Management Division .............................................................................................. 6
      Human Capital and Infrastructure Division............................................................................. 8
      Information Technology Division ........................................................................................... 8
      International Programs Division ............................................................................................ 10
      Security and Intelligence Division ........................................................................................ 10
   Middle East Region Operations Directorate ............................................................................. 11
      Iraq ......................................................................................................................................... 11
      Afghanistan ............................................................................................................................ 12
      Pakistan .................................................................................................................................. 12
      Other Locations and Bureaus ................................................................................................ 13
Office of Inspections Overview .................................................................................................... 14
Office of Inspections Plans for FY 2012 ...................................................................................... 16
Office of Inspections Special Projects and Areas of Emphasis .................................................... 19
Office of Investigations Overview ................................................................................................ 19
Office of Investigations Areas of Emphasis and Preventive Actions for FY 2012 ...................... 20
OIG Hotline .................................................................................................................................. 21
Abbreviations ................................................................................................................................ 22
Introduction


We are pleased to present the Office of Inspector General Work Plan for Fiscal Year 2012. This
publication provides brief descriptions of activities that the Office of Inspector General (OIG)
plans to initiate or continue with respect to the programs and operations of the Department of
State (Department) and the Broadcasting Board of Governors (BBG) in FY 2012.

OIG is dedicated to improving operations, promoting positive change, and detecting and
preventing waste, fraud, abuse, and mismanagement. OIG’s independent role and general
responsibilities are established by the Inspector General Act of 1978, as amended, the Foreign
Service Act of 1980, the Omnibus Diplomatic Security and Antiterrorism Act of 1986, and the
Foreign Affairs Reform and Restructuring Act of 1998.

Specifically, OIG:
      Reviews the Department and BBG programs and operations to assess their effectiveness
       and use of resources;
      Recommends operational, procedural, or policy changes to correct deficiencies;
      Ensures effective, efficient operations and compliance with laws and regulations;
      Identifies savings through greater efficiency, alternative use of resources, and
       recommended collection actions; and
      Investigates and refers cases of wrongdoing for judicial and management action to correct
       waste, fraud, abuse, or mismanagement.

The criteria used by OIG in selecting areas for review include:
      Congressional mandates;
      Magnitude in dollars or other resources;
      Vulnerability to loss through waste, fraud, abuse, or error;
      Significance to the achievement of major Department goals;
      Importance to employee health and safety;
      Particular interest to the Secretary, the Deputy Secretary, an Under Secretary, the White
       House, or the Congress; and
      New or changed conditions affecting a program or function.

Our Work Plan for FY 2012 is an evolving document, to be revised and updated as necessary to
ensure that OIG work remains relevant, timely, and responsive to the priorities of the
Department, BBG, the Administration, the Congress, and the foreign affairs community.




                            Office of Inspector General Work Plan FY 2012
                                                  1
OIG Vision


To be a world-class organization promoting effective management, accountability, and positive
change in the Department, Broadcasting Board of Governors, and the foreign affairs community.



OIG Mission


The Office of Inspector General conducts independent audits, inspections, and investigations that
advance the missions of the Department of State and the Broadcasting Board of Governors. OIG
provides leadership to:

      promote integrity, efficiency, effectiveness, and economy;
      prevent and detect waste, fraud, abuse, and mismanagement;
      identify vulnerabilities and recommend constructive solutions;
      offer expert assistance to improve Department and BBG operations;
      communicate timely, useful information that facilitates decision-making and achieves
       measurable gains; and
      keep the Department, BBG, and the Congress fully and currently informed.



OIG Core Values


Credibility: OIG is committed to the highest standards of accountability, independence,
integrity, and professionalism.
Objectivity: OIG’s reports and other products are factual, accurate, informative, and reliable.
Relevance: An independent agent for positive change, OIG provides valuable and timely
service.
Effectiveness: OIG makes a difference. Working cooperatively, in a spirit of teamwork,
internally and with other organizations, enhances OIG’s impact.




                             Office of Inspector General FY 2012 Work Plan
                                                   2
Organization Chart




Office of Audits Overview


The Assistant Inspector General for Audits is responsible for leading the Office of Audits, which
is comprised of the Audits Directorate and the Middle East Region Operations (MERO)
Directorate. The Deputy Assistant Inspector General for Audits is responsible for the Audits
Directorate, and is charged with conducting audits and program evaluations of the management
and financial operations of the Department and BBG, including their audited financial
statements, information security, internal operations, and external activities funded by the


                            Office of Inspector General FY 2012 Work Plan
                                                  3
Department through contracts or financial assistance. The Deputy Assistant Inspector General for
MERO is responsible for the MERO Directorate and for performing engagements within the
Middle East Region, covering the Department’s Bureaus of Near Eastern Affairs (NEA) and
South and Central Asian Affairs (SCA). The Deputy Assistant Inspector General for MERO is
also responsible for general operation of overseas offices located in Cairo, Egypt; Kabul,
Afghanistan; Islamabad, Pakistan; and Baghdad, Iraq.

Audits and program evaluations determine the degree to which an organization, program, or
function is effectively managed and the extent program results are achieved. The definition for
effectiveness is derived from the agency objectives, operating within the relevant laws and
directives pertaining to the organization or program. The overall objective of an audit is to
identify challenges impeding progress and offer solutions that address the root cause of those
challenges, as well as to identify and report best management practices that can be replicated to
promote operational efficiency and the effective management of all Department and BBG
programs. The audit process includes:

      Audit notification. The Office of Audits notifies the agency in writing that an audit is
       scheduled to start.
      Entrance conference. After written notification, a meeting is held to inform the agency of
       the purpose, objectives, and scope of the audit and the methodology to be followed.
      Audit field work. A detailed evaluation of the program, activity, or function is conducted
       in accordance with Government Accountability Office Standards.
      Exit conference. At the conclusion of an audit, a formal conference is held with the
       principal post and bureau officials to present the audit results. This provides an
       opportunity for the audit team and the auditee to discuss the audit findings and the
       recommendations offered to address the root cause of the challenges identified.

During the audit, the auditee is kept apprised of audit activities. The Inspector General is given a
detailed briefing before the audit begins and at the conclusion of audit fieldwork. Following the
exit conference, the audit team prepares a draft report, which is vetted for comment and
clearance within OIG. The auditee then has up to 15 calendar days to provide comments on the
draft report and to specify whether it agrees with the report’s recommendations and with the
amount of any potential monetary benefits or recoveries. Those comments are incorporated into
the final report. The auditee has 45 days from issuance of the final report to provide information
on actions planned and taken to implement the recommendations.




                             Office of Inspector General FY 2012 Work Plan
                                                   4
Office of Audits Plans for FY 2012



Audits Directorate
Contracts and Grants Division

 Locations             Title                     Primary Objective             Justification   Start Date

 BBG         Audit of BBG's                To determine the effectiveness      Program Risk      June
             Contractor Suspension         of BBG's contractor suspension                        2011
             and Debarment Process         and debarment process
             (Carryover)

EAP, NEA,    Audit of Select Fulbright     To determine whether select         Program Risk     August
SCA, and     Commissions in the            Fulbright Commissions in                              2011
ECA          Bureaus of East Asian         EAP, NEA, and SCA are
             and Pacific Affairs           complying with the terms and
             (EAP), Near Eastern           conditions of grant regulations
             Affairs (NEA), and South      and agreements
             and Central Asian
             Affairs. (Carryover)

DOS, BBG     Quality Control Review        Pursuant to the requirements of      Mandatory       October
             of OMB Circular A-133,        OMB Circular A-133, to                                2011
             Single Audit Act Initial      provide selected Single Audit
             (Desk) Reviews                Act Desk Reviews that can
                                           identify questioned costs for
                                           repayment to the Department
                                           and BBG

NEA, SCA,    Audit of Select Grants for    To determine whether select         Program Risk    February
PRM          the Overseas Refugee          grantee organizations receiving                       2012
             Assistance Program in the     $700 million in Department
             Middle East and South         grants for Overseas Refugee
             Asia                          Assistance Programs in the
                                           Middle East and South Asia are
                                           complying with grant terms and
                                           conditions

OBO and A    Audit of Contracts for        To determine whether                Program Risk      March
             Major Overseas U. S.          construction contractors for                          2012
             Embassy Construction          select major overseas embassy
             Projects During FYs           construction projects are
             2011-2012                     complying with Federal
                                           procurement regulations




                               Office of Inspector General FY 2012 Work Plan
                                                     5
Financial Management Division

 Locations             Title                      Primary Objective             Justification   Start Date

DOS          Audit of the                  To determine whether the              Mandatory       January
             Department’s FY 2011          financial statements and related                       2011
             Financial Statements          notes are presented fairly, in all
             (Carryover)                   material respects, in conformity
                                           with the accounting principles
                                           generally accepted in the United
                                           States

BBG          Audit of BBG’s FY 2011        To determine whether the              Mandatory       January
             Financial Statements          financial statements and related                       2011
             (Carryover)                   notes are presented fairly, in all
                                           material respects, in conformity
                                           with the accounting principles
                                           generally accepted in the United
                                           States

RM and HR    Audit of Foreign Service      To determine whether the              Mandatory        March
             Retirement and Disability     financial statements and related                       2011
             Fund’s (FSRDF) FY             notes are presented fairly, in all
             2010 Financial                material respects, in conformity
             Statements (Carryover)        with the accounting principles
                                           generally accepted in the United
                                           States

IBWC         Audit of International        To determine whether the              Mandatory        July
             Boundary and Water            financial statements and related                       2011
             Commission’s (IBWC)           notes are presented fairly, in all
             FY 2011 Financial             material respects, in conformity
             Statements (Carryover)        with the accounting principles
                                           generally accepted in the United
                                           States

CA and RM    Audit of the                  To determine to what extent          Program Risk      July
             Department’s Use of           MRV fees collected by the                              2011
             Machine Readable Visa         Department are expended in
             (MRV) Fees                    accordance with Department
                                           guidelines and mission priorities.

DOS          Compliance with the           To determine whether the              Mandatory      November
             Improper Payments             Department is in compliance with                       2011
             Improvement Act, as           the Improper Payments
             amended                       Improvement Act, as amended

BBG          Compliance with the           To determine whether BBG is in        Mandatory      November
             Improper Payments             compliance with the Improper                           2011
             Improvement Act, as           Payments Improvement Act, as
             amended                       amended




                               Office of Inspector General FY 2012 Work Plan
                                                      6
 Locations             Title                      Primary Objective             Justification   Start Date

INL and RM   Review of DOS FY 2011         To authenticate the Department’s      Mandatory      December
             Accounting and                FY 2011 accounting of drug                             2011
             Authentication of Drug        control funds and related
             Control Funds and             performance in compliance with
             Related Performance           ONDCP guidance
             Report for the Office of
             National Drug Control
             Policy (ONDCP)

DOS          Audit of the                  To determine whether the              Mandatory       January
             Department’s FY 2012          financial statements and related                       2012
             Financial Statements          notes are presented fairly, in all
                                           material respects, in conformity
                                           with the accounting principles
                                           generally accepted in the United
                                           States

BBG          Audit of BBG’s FY 2012        To determine whether the              Mandatory       January
             Financial Statements          financial statements and related                       2012
                                           notes are presented fairly, in all
                                           material respects, in conformity
                                           with the accounting principles
                                           generally accepted in the United
                                           States

A            Audit of the                  To determine whether the             Program risk     February
             Department’s Surcharge        surcharge related to acquisitions                       2012
             for Procurement               has improved the efficiency and
             Assistance From the           effectiveness of acquisition
             Bureau of Administration      management and improved
                                           customer service.

RM and HR    Audit of Foreign Service      To determine whether the              Mandatory        March
             Retirement and Disability     financial statements and related                       2012
             Fund’s (FSRDF) FY             notes are presented fairly, in all
             2011Financial Statements      material respects, in conformity
                                           with the accounting principles
                                           generally accepted in the United
                                           States

IBWC         Audit of International        To determine whether the              Mandatory        July
             Boundary and Water            financial statements and related                       2012
             Commission’s (IBWC)           notes are presented fairly, in all
             FY 2011 Financial             material respects, in conformity
             Statements                    with the accounting principles
                                           generally accepted in the United
                                           States




                               Office of Inspector General FY 2012 Work Plan
                                                      7
Human Capital and Infrastructure Division

  Location               Title                      Primary Objective               Justification   Start Date

HR and MED     Audit of the                  To determine to what extent the        Program Risk      June
               Department’s                  Department’s employee drug-                              2011
               Performance in                testing program meets Federal and
               Promoting and Ensuring        Department goals and industry
               a Drug-Free Workforce         benchmarks
               (Carryover)

HR             Audit of the                  To determine to what extent the        High Priority   September
               Department’s Efforts to       Department’s efforts to recruit        Performance       2011
               Recruit and Retain            and retain staff with specific             Goal
               Highly Skilled Personnel      knowledge, skills, and abilities
               (Carryover)                   have been effective

HR             Audit of the                  To determine the efficacy of the       Program Risk    November
               Department’s Process To       Department’s process to timely                           2011
               Discontinue Payroll           remove separated employees from
               Actions for Separated         the payroll
               Employees

OBO            Audit of the                  To determine to what extent the        High Priority     April
               Department’s Efforts to       Department’s efforts to “Go            Performance       2012
               “Go Green”                    Green” are meeting Federal and             Goal
                                             Department goals and objectives

S/CRS, HR,     Audit of the                  To determine to what extent the        High Priority    August
INL, PM, and   Department’s Progress in      Department has recruited,              Performance       2012
S/CT           Staffing the Civilian         developed, trained, and equipped           Goal
               Response Corps                a 4,250-person Civilian Response
                                             Corps



Information Technology Division

  Location               Title                      Primary Objective               Justification   Start Date

RM, DS,        Audit of Department of        To determine the effectiveness of      Program Risk     August
IRM, CA, A,    State Access Controls for     logical access controls pertaining                       2011
and HR         Information Systems           to user access to applications and
               (Carryover)                   associated databases

IRM            Audit of Department of        To determine whether the               Program Risk     October
               State Data Center             Department has instituted security                       2011
               Security and                  controls that are appropriate to its
               Consolidation                 data centers and is progressing
                                             with data center consolidation




                                 Office of Inspector General FY 2012 Work Plan
                                                        8
 Location              Title                      Primary Objective              Justification   Start Date

DOS          Review of the                 To determine the effectiveness of      Mandatory      February
             Information Security          security controls and techniques                        2012
             Program at the                for selected information systems
             Department of State           and compliance with Federal
                                           Information Security Management
                                           Act (FISMA) and related
                                           information security policies,
                                           procedures, standards, and
                                           guidelines

DS and INR   Review of the                 To determine the effectiveness of      Mandatory      February
             Information Security          security controls and techniques                        2012
             Program for Sensitive         for SCI systems and compliance
             Compartmented                 by the Department’s Intelligence
             Information (SCI)             Community with FISMA and
             Systems at the                related information security
             Department of State           policies, procedures, standards,
                                           and guidelines

BBG          Review of the                 To determine the effectiveness of      Mandatory      February
             Information Security          security controls and techniques                        2012
             Program at the                for selected information systems
             Broadcasting Board of         and BBG compliance with
             Governors (BBG)               FISMA and related information
                                           security policies, procedures,
                                           standards, and guidelines

IBWC         Review of the                 To determine the effectiveness of      Mandatory      February
             Information Security          security controls and techniques                        2012
             Program at the                for selected information systems
             International Boundary        and IBWC compliance with
             and Water Commission          FISMA and related information
             (IBWC)                        security policies, procedures,
                                           standards, and guidelines

IRM          Audit of Department of        To determine whether the              Program Risk      March
             State Security Controls       Department has securely                                 2012
             Over the Active               implemented active directory
             Directory Enterprise          services to prevent outside cyber
             Environments                  attacks and has implemented
                                           effective security controls through
                                           the enterprise

IRM          Audit of Department of        To determine to what extent the       Program Risk      March
             State System                  Department's SDLC policies and                          2012
             Development Life Cycle        procedures address Federal
             (SDLC) Process                requirements and best practices
                                           governing the SDLC process

IRM, RM,     Audit of Department of        To determine to what extent the       Program Risk      June
and A        State Information             Department has adhered to                               2012
             Technology Vanguard           requirements for outsourcing IT
             Contract                      support, as prescribed by OMB
                                           Circular A-76



                               Office of Inspector General FY 2012 Work Plan
                                                     9
International Programs Division

 Locations              Title                      Primary Objective             Justification   Start Date

SECC, OES,    Audit of Department of        To determine to what extent the      High Priority    August
and EEB       State Progress in             Department is achieving its goals    Performance       2011
              Achieving its Goals and       and commitments to the                   Goal
              Commitments to Combat         multilateral effort to combat
              Climate Change                climate change
              (Carryover)

GAC           Audit of Department of        To determine to what extent the      High Priority     April
              State Oversight and           Department is fulfilling its         Performance       2012
              Reporting of Donor            obligations to oversee, track, and       Goal
              Contributions to the          report contributions to the Global
              Global Fund to Fight          Fund in accordance with
              HIV/AIDS, Tuberculosis,       requirements set forth in the U.S.
              and Malaria (Carryover)       Leadership in the Fight Against
                                            HIV/AIDS, Tuberculosis and
                                            Malaria Act of 2008

PM, WRA       Audit of Department of        To determine whether the             Program Risk    September
              State Management and          Department has implemented                             2012
              Oversight of the U.S.         internal controls to effectively
              Humanitarian Mine             manage and oversee the U.S.
              Action Program                Humanitarian Mine Action
                                            Program




Security and Intelligence Division

 Locations              Title                      Primary Objective             Justification   Start Date

A and DS      Audit of Department of        To determine whether the              Mandatory        March
              State Process to award the    Department's process to award                          2011
              Worldwide Protective          the WPS contract and subsequent
              Services (WPS) Contract       Kabul task order included
              and Kabul Embassy             required procedures to assess
              Security Force Task           contractor responsibility, past
              Order (Carryover)             performance, and technical merit

T, ISN, and   Audit of Department of        To determine whether the             High Priority    October
CTR           State Administration of       Department has implemented           Performance       2011
              Nonproliferation and          internal controls to effectively         Goal
              Threat Reduction              monitor and measure
              Programs                      Nonproliferation and Threat
                                            Reduction assistance




                                Office of Inspector General FY 2012 Work Plan
                                                      10
  Location               Title                      Primary Objective             Justification   Start Date

M and DS       Audit of Compliance with      To determine whether posts in        Program Risk    November
               Secure Embassy                select geographical regions are                        2011
               Construction and              meeting the security requirements
               Counterterrorism Act of       prescribed by SECCA and OSPB
               1999 (SECCA) and
               Overseas Security Policy
               Board (OSPB) Security
               Requirements

T, PM, and     Audit of Department of        To determine to what extent and      Program Risk      March
EEB            State Actions to Address      manner the Department has                              2012
               the Challenges of             achieved its goals and objectives
               Maritime Piracy               in halting maritime pirate attacks
                                             emanating from Somalia

M, DS, and     Audit of Bureau of            To determine DS's progress in        Program Risk      July
IRM            Diplomatic Security           implementing interpretable                             2012
               Implementation of             communications among strategic
               Interoperable                 partners at overseas posts
               Communications at
               Overseas Posts




Middle East Region Operations Directorate
Iraq

 Locations               Title                      Primary Objective             Justification   Start Date

Embassy        Audit of the Worldwide        To determine whether the             Program Risk     October
Baghdad, DS,   Protective Services           Department's administration and                        2011
and AQM        (WPS) Task Order for the      oversight of the WPS task order
               Baghdad Embassy               for BESF has been effective
               Security Force (BESF)

Embassy        Implementation of             To determine whether the             Program Risk     January
Baghdad, A,    Baghdad Master Plan for       Department is effectively                              2012
DS, INL,       Transition to a Civilian-     implementing the Baghdad
NEA, OBO,      Led Presence in Iraq
                                             Master Plan and its goals for
and PM
                                             transitioning from a military to
                                             civilian-led presence in Iraq.


Embassy        Audit of the Department's     To determine whether the             Program Risk     January
Baghdad,       Management of Medical         Department's management of                             2012
NEA, MED,      Operations Supporting         medical operations dedicated to
and AQM        Personnel Assigned to         supporting personnel assigned to
               Iraq                          Iraq has been effective and
                                             properly resourced.




                                 Office of Inspector General FY 2012 Work Plan
                                                       11
  Location               Title                      Primary Objective            Justification   Start Date

Embassy        Audit of the Worldwide        To determine whether the            Program Risk    September
Baghdad, DS,   Protective Services           Department's administration and                       2012
and AQM        (WPS) Task Order for          oversight of the WPS task order
               Kirkuk/Mosul Task Order       for Kirkuk/Mosul has been
                                             effective




Afghanistan

 Locations               Title                      Primary Objective            Justification   Start Date

Embassy        Audit of the Worldwide        To determine whether the            Program Risk     October
Kabul, DS,     Protective Services           Department's administration and                       2011
and AQM        (WPS) Task Order for the      oversight of the WPS task order
               Kabul Embassy Security        for KESF has been effective
               Force (KESF)

Embassy        Audit of Administration       To determine whether the Bureau     Program Risk      April
Kabul, INL,    and Oversight of              of International Narcotics and                        2012
and OBO        Contracts to Construct        Law Enforcement Affairs has
               Prisons within                effectively administered and
               Afghanistan                   overseen funds expended for
                                             prison construction within
                                             Afghanistan

Embassy        Audit of the Worldwide        To determine whether the            Program Risk    September
Kabul, DS,     Protective Services           Department's administration and                       2012
and AQM        (WPS) Herat/Mazar-e-          oversight of the Herat/Mazar-
               Sharif Task Order             Sharif task order has been
                                             effective




Pakistan

 Locations               Title                      Primary Objective            Justification   Start Date

Embassy        Audit of the Operations       To determine whether the            Program Risk     October
Islamabad      and Maintenance               Department has effectively                            2011
and AQM        Contract for Embassy          managed and overseen the
               Islamabad                     operations and maintenance
                                             contract for Embassy Islamabad

Embassy        Audit of the                  To determine whether the            Program Risk      April
Islamabad      Administration and            Department's administration and                       2012
and SRAP       Oversight of Economic         oversight of Economic Support
               Support Funds for             Funds for Pakistan have been
               Pakistan                      effective




                                 Office of Inspector General FY 2012 Work Plan
                                                      12
  Location             Title                      Primary Objective            Justification   Start Date

Embassy      Audit of the                  To determine whether the Bureau     Program Risk    September
Islamabad    Administration and            of International Narcotics and                        2012
and INL      Oversight of the Pakistan     Law Enforcement Affairs
             National Police Training      administration and oversight of
             and Mentoring Program         the Pakistan national police
                                           training and mentoring program
                                           have been effective and whether
                                           the Program has achieved its
                                           stated performance goals




Other Locations and Bureaus
  Location             Title                      Primary Objective            Justification   Start Date

Consulate    Audit of the Worldwide        To determine whether the            Program Risk    February
General      Protective Services           Department's administration and                       2012
Jerusalem,   (WPS) Jerusalem Task          oversight of the WPS task order
DS, and      Order                         for Jerusalem has been effective
AQM

Embassy      Audit of Department of        To determine whether the Bureau     Program Risk      July
Jordan and   State Administration and      of International Narcotics and                        2012
INL          Oversight of the              Law Enforcement Affairs’
             Jordanian Police              administration and oversight of
             Modernization Program         the Jordanian Police
                                           Modernization Program have
                                           been effective and whether the
                                           program has achieved its stated
                                           performance goals

DS, NEA,     Audit of Bureau of            To determine what requirement       Program Risk    September
and SCA      Diplomatic Security           studies and assessments were                          2012
             Management of the             conducted by the Bureau of
             Worldwide Protective          Diplomatic Security to establish
             Services (WPS) Contract       WPS protection service
             Within Bureaus of Near        requirements in NEA and SCA
             Eastern Affairs (NEA)         countries
             and South and Central
             Asian Affairs (SCA)
             Countries




                               Office of Inspector General FY 2012 Work Plan
                                                    13
Office of Inspections Overview


Inspections are conducted to provide overseas missions and Department bureaus with
assessments of mission leadership, policy implementation, and management operations. The
inspection is a comprehensive and independent review intended to propose potential efficiencies
and cost-saving measures; encourage self-evaluation and correction; provide counseling to
employees, including ambassadors and bureau assistant secretaries; and identify problems and
recommend solutions. Inspections differ from audits in that inspections normally review an
organization in its entirety, while audits concentrate on a particular function or program that may
cross several organizations.

The Foreign Service Act of 1980 requires that an inspection of each Foreign Service post and
each domestic bureau be conducted at least once every 5 years, although this requirement is
waived every year by Congress. OIG’s methodology for investing its resources includes a risk
management approach to help prioritize projects and to ensure that our discretionary inspections
cover high-cost programs, key management challenges, and vital operations. OIG retains a
quick-reaction capability to address requests made on short notice by Congress or senior
Department officials. Inspection staff also conduct extensive outreach activities, briefing
attendees of FSI courses as well as numerous officers, including ambassadors, before they depart
for post.

The domestic and overseas inspection process includes:

      Inspection notification. The Office of Inspections (ISP) notifies the post, office, or bureau
       in writing that an inspection is scheduled. The announcement is followed up with specific
       travel and arrival dates of the inspection team together with instructions for the
       inspection. An ISP point of contact is established, and one is requested of the inspected
       entity.
      Survey. An initial phase of the inspection process is information collection from the
       inspected entity and relevant Department bureaus, offices, and Federal agencies with
       which it relates. Each inspected entity completes functional questionnaires covering 21
       areas of operations. These are used as a guide to review operations prior to the arrival of
       the inspectors. Other questionnaires address service satisfaction and individual concerns.
      On-site inspection. The inspection team conducts on-site reviews of the post, bureau, or
       office with a focus on three broad areas set forth in the Foreign Service Act of 1980:
       - Policy implementation—whether policy goals and objectives are being effectively
         achieved; whether post operations are in consonance with the foreign policy of the
         United States; whether U.S. interests are being accurately and effectively represented;
         and whether all elements of an office or mission are being adequately coordinated.



                             Office of Inspector General FY 2012 Work Plan
                                                  14
    - Resource management—whether resources are being used and managed with
      maximum efficiency, effectiveness, and economy; and whether financial transactions
      and accounts are properly conducted, maintained, and reported. Teams also focus on
      identifying potential efficiencies and cost-saving measures leading to more effective
      use of resources.

    - Management controls—whether the administration of activities and operations meets
      the requirements of applicable laws and regulations; whether internal management
      controls have been instituted to ensure quality of performance and reduce the
      likelihood of mismanagement; whether instances of fraud, waste, or abuse exist; and
      whether adequate steps for detection, correction, and prevention have been taken. The
      inspectors value counseling as a critically important facet of the review process and
      will seek improvements through the use of this technique as a first course of action.

   Inspection reports. The inspectors’ findings and recommendations are formalized and
    issued in report format. Inspection reports adhere to the standards set out in the Quality
    Standards for Inspections, as issued by the Council for Inspectors General on Integrity
    and Efficiency, and the Inspectors’ Handbook, as issued by the OIG.
   Report Review. The inspected entity reviews a field draft of the report and is afforded the
    opportunity to comment. Relevant Washington offices also are provided an opportunity
    to comment. In addition, the draft inspection report is vetted for comment and clearance
    within OIG.
   Follow up reviews. ISP conducts compliance follow-up reviews on approximately 15-20
    percent of posts, offices, and bureaus inspected. These reviews occur 6 to 12 months after
    the full inspection and are designed to revisit key issues to ensure implementation of
    recommendations, and provide quality control of the inspection process.




                         Office of Inspector General FY 2012 Work Plan
                                              15
Office of Inspections Plans for FY 2012


Fall Cycle: October – November 2012

                               Compliance
  Bureau/
              Inspection        Follow-up                               Location
   Office
                                 Review

EAP                                          Embassy Hanoi, Vietnam

EAP                                          American Institute in Taiwan

EUR                                          Embassy Vienna, Austria

                                              U.S. Mission to the Organization for Security
EUR                                           and Cooperation in Europe (USOSCE)

                                              U.S. Mission to International Organizations in Vienna
EUR, IO                                       (UNVIE)

EUR                                          Embassy Copenhagen, Denmark

NEA                                          Embassy Beirut, Lebanon

NEA                                          Embassy Algiers, Algeria

WHA                                          Embassy Caracas, Venezuela

WHA                                          Embassy Nassau, Bahamas

                                              Bureau of Administration, Global Information Services,
A/GIS/GPS                                     Global Publishing Solutions

ECA                                          Bureau of Educational and Cultural Affairs




                           Office of Inspector General FY 2012 Work Plan
                                                16
Winter Cycle: February – March 2012

                              Compliance
  Bureau/
             Inspection        Follow-up                               Location
   Office
                                Review

EAP                                          Embassy Singapore. Singapore

EAP                                          Embassy Bandar Seri Begawan, Brunei

EAP                                          Embassy Bangkok, Thailand

EAP                                          Consulate General Hong Kong, China

EUR                                          Embassy Paris, France

                                              U.S. Mission to the Organization for Economic
EUR                                           Cooperation and Development (USOECD)

                                              U.S. Mission to the United Nations Educational,
EUR, IO                                       Scientific, and Cultural Organization (USUNESCO)

SA                                           Embassy Islamabad, Pakistan

WHA                                          Embassy Port-Au-Prince, Haiti

WHA                                          Embassy San Jose, Costa Rica

                                              Bureau of Consular Affairs, Office of Overseas Citizens'
CA/OCS                                        Services

                                              Bureau of Diplomatic Security, Office of Anti-Terrorism
DS/T/ATA                                      Assistance

G/TIP                                        Office To Monitor and Combat Trafficking in Persons

IRM/OPS/                                      Bureau of Information Resource Management, Systems
SIO                                           and Integration Office

S/CT                                         Office of the Coordinator for Counterterrorism




                          Office of Inspector General FY 2012 Work Plan
                                               17
Spring Cycle: May – June 2012

                               Compliance
  Bureau/
              Inspection        Follow-up                                 Location
   Office
                                 Review

AF                                          Embassy Nairobi, Kenya

AF, IO                                      U.S. Permanent Mission to the United Nations - Nairobi

AF                                          Embassy Lusaka, Zambia

AF                                          Embassy Khartoum, Sudan

AF                                          Embassy Juba, South Sudan

AF                                          Embassy Asmara, Eritrea

EUR                                         Embassy Madrid, Spain

EUR                                         Embassy Lisbon, Portugal

EUR                                         Embassy Prague, Czech Republic

EUR                                         Embassy Bucharest, Romania

EUR                                         Embassy Ljubljana, Slovenia

FSI                                         Foreign Service Institute

BBG                                         Voice of America's Latin America Service




                           Office of Inspector General FY 2012 Work Plan
                                                18
Office of Inspections Special Projects and Areas of Emphasis


The Office of Inspections also conducts targeted reviews based on congressional or Department
requests, vulnerabilities, and concerns about high-priority programs or issues. OIG establishes
areas of emphasis for all inspection teams to cover during an inspection cycle or the entire fiscal
year. Findings on the areas of emphasis are analyzed across inspections and allow inspectors to
take a broader look at high-priority issues. In some cases, summary reports are issued with
recommendations to address thematic or global problems.

Planned Special Projects and Areas of Emphasis for FY 2012 include:

      Strategic Planning for Public Diplomacy
      Regional Security Officer Passport and Visa Fraud Investigations
      Excess, Obsolete and Underutilized Properties
      Vehicle Fleet Management
      Value-Added Tax Collections
      Language-Designated Position Selection
      Physical Security Waivers and Exceptions
      Information Technology Project Management and Contractor Oversight
      Information Technology Staffing Overseas



Office of Investigations Overview


The Office of Investigations is committed to addressing allegations of fraud and misconduct in
an independent and objective manner, by conducting investigations of criminal, civil, and
administrative violations related to Department and BBG programs and operations, and by
assisting the Department and BBG in preventing and detecting, fraud. OIG’s investigative
activities are largely reactive and occur in locations around the world.

The results of investigations concerning employees or contractors suspected of violating federal
statutes are referred to the Department of Justice for prosecutorial determination. Administrative
violations are referred to the Department's Bureau of Human Resources and Bureau of
Diplomatic Security for independent adjudicative action.



                             Office of Inspector General FY 2012 Work Plan
                                                  19
The types of violations investigated by OIG cover a wide range including procurement fraud,
public corruption, embezzlement, false claims and false statements. Chart A below illustrates the
types of cases investigated.




                      Chart A - Types of Cases Investigated
       Passport & Visa Fraud                                         13%

    False Claims / Statements                                           14%

       Employee Misconduct                                           13%

       Embezzlement / Theft                                                              23%

          Procurement Fraud                                                        20%

           Public Corruption                                         13%

                       Other                 4%

                                0%          5%             10%          15%      20%      25%




The Office of Investigations maintains a cooperative relationship with the Office of the
Procurement Executive, to ensure information developed is appropriately shared in furtherance
of administrative remedies such as suspension and/or debarment.



Office of Investigations Areas of Emphasis
and Preventive Actions for FY 2012


The Office of Investigations consults with stakeholders in the Department and Congress
regarding oversight of high-risk areas and management challenges, adjusting its priorities
appropriately. In addition to the reactive work of the Office of Investigations, programs and
operations in the Department are periodically identified as being of high priority or importance,
and investigative resources are concentrated in those areas. Most recently, priority has been
given in the area of Procurement Fraud, particularly involving Middle East programs and
operations.



                                 Office of Inspector General FY 2012 Work Plan
                                                      20
The Inspector General is charged with fraud prevention as well as detection. Toward this
objective, the Office of Investigations can issue Fraud Alert Bulletins and Management
Assistance Reports. Fraud Alert Bulletins are issued to all executive directors when an
investigation identifies a systemic weakness that may impact multiple Department bureaus or
offices. Management Assistance Reports are issued when a systemic weakness is identified in a
bureau-specific program or operation. It is sent directly to the affected bureau or office with
recommendations for corrective action.

The Office of Investigations also actively participates in an OIG Outreach Program to speak
before a variety of Department groups and training classes in an effort to help employees identify
indicators of fraud that should be referred to OIG. During FY 2011, the Office of Investigations
conducted more than 30 outreach presentations to various Department groups and training
classes involving well over 1,500 Department employees, including new ambassadors.



OIG Hotline


The Office of Investigations also maintains the OIG Hotline, a confidential channel for the
receipt of complaints about violations of law or regulation, fraud, waste, abuse, or substantial and
specific threats to public health and safety. Investigations conducted by OIG criminal
investigators are usually the result of allegations received from the Hotline, OIG audit or
inspection teams, Department or BBG management or employees, Offices of Inspector General
of other agencies, Congress, or the public. As necessary, the assistance of auditors, inspectors,
and other experts may be enlisted in support of investigative operations.

Complaints to the OIG Hotline have generated numerous successful investigations resulting in
criminal, civil, and administrative sanctions. In FY 2011, approximately 1,800 hotline
complaints were received. In FY 2012, given the current rate of growth in the number of
complaints received, OIG expects to receive and process more than 2,000 hotline complaints.
Allegations may be reported to the Hotline by calling 202-647-3320 or 1-800-409-9926. Written
information may be sent to the oighotline@state.gov or mailed to: Office of Inspector General
Hotline, U.S. Department of State, Post Office Box 9778, Arlington, Virginia 22219-1778.




                             Office of Inspector General FY 2012 Work Plan
                                                  21
Abbreviations


The Work Plan refers to the following selected acronyms and abbreviations for terms and titles:

A                     Bureau of Administration
A/GIS/GPS             Bureau of Administration, Global Information Services, Global Publishing
                      Solutions
AF                    Bureau of African Affairs
AQM                   Office of Acquisitions Management
BBG                   Broadcasting Board of Governors
CA                    Bureau of Consular Affairs
CA/OCS                Bureau of Consular Affairs, Office of Overseas Citizens' Services
CTR                   Office of Cooperative Threat Reduction
Department            Department of State
DS                    Bureau of Diplomatic Security
DS/T/ATA              Bureau of Diplomatic Security, Office of Anti-Terrorism Assistance
EAP                   Bureau of East Asian and Pacific Affairs
ECA                   Bureau of Educational and Cultural Affairs
EEB                   Bureau of Economic, Energy, and Business Affairs
EUR                   Bureau of European and Eurasian Affairs
FSI                   Foreign Service Institute
S/GAC                 Office of the U.S. Global AIDS Coordinator
G/TIP                 Office to Monitor and Combat Trafficking in Persons
HR                    Bureau of Human Resources
IBWC                  International Boundary and Water Commission
INL                   Bureau of International Narcotics and Law Enforcement Affairs
INR                   Bureau of Intelligence and Research
IRM                   Bureau of Information Resource Management
IRM/OPS/SIO           Bureau of Information Resource Management, Office of Operations,
                      Systems and Integration Office

                            Office of Inspector General FY 2012 Work Plan
                                                  22
ISP        Office of Inspections
ISN        Bureau of International Security and Nonproliferation
M          Under Secretary for Management
MED        Office of Medical Services
MERO       Middle East Regional Office
NEA        Bureau of Near Eastern Affairs
OBO        Bureau of Overseas Buildings Operations
OECD       U.S. Mission to the Organization for Economic Cooperation and
           Development
OES        Bureau of Oceans and International Environmental and Scientific Affairs
OIG        Office of Inspector General
PM         Bureau of Political-Military Affairs
PRM        Bureau of Population, Refugees and Migration
RM         Bureau of Resource Management
SCA        Bureau of South and Central Asian Affairs
S/CRS      Office of the Coordinator for Reconstruction and Stabilization
S/CT       Office of the Coordinator for Counterterrorism
SECC       Office of the Special Envoy for Climate Change
SRAP       Special Representative for Afghanistan and Pakistan
T          Under Secretary for Arms Control and International Security
UNEP       United States Permanent Mission to the UN Environment Programme
UNVIE      U.S. Mission to International Organizations in Vienna
USUNESCO   U.S. Mission to the United Nations Educational, Scientific, and Cultural
           Organization
USOSCE     U.S. Mission to the Organization for Security and Cooperation in Europe
VOA        Voice of America
WHA        Bureau of Western Hemisphere Affairs
WRA        Office of Weapons Removal and Abatement




                 Office of Inspector General FY 2012 Work Plan
                                      23
